              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report

Firearms Internal Controls at the Lawrence
Livermore National Laboratory




DOE/IG-0621                                 September 2003
FIREARMS INTERNAL CONTROLS AT THE LAWRENCE
LIVERMORE NATIONAL LABORATORY
FIREARMS INTERNAL CONTROLS AT THE LAWRENCE
LIVERMORE NATIONAL LABORATORY
FIREARMS INTERNAL CONTROLS AT THE LAWRENCE
LIVERMORE NATIONAL LABORATORY



TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   1


              DETAILS OF FINDINGS            2

              Property Inventory             2

              Monthly Inventories            3


              RECOMMENDATIONS                4


              MANAGEMENT COMMENTS            4


              INSPECTOR COMMENTS             4


              APPENDICES

              A. Scope and Methodology       6

              B. Management Comments         7
Overview

INTRODUCTION      Some Department of Energy (DOE) sites maintain firearms for
AND OBJECTIVE     use by protective forces to secure and safeguard facilities, nuclear
                  weapons and materials, and employees. Firearms are considered
                  sensitive items by DOE and are subject to strict inventory controls.

                  The Office of Inspector General (OIG) initiated an inspection of
                  internal controls over firearms at DOE’s Lawrence Livermore
                  National Laboratory (Livermore). This inspection complements
                  similar work performed at the Los Alamos National Laboratory
                  (Los Alamos) and the Savannah River Site. A report on the Los
                  Alamos review was issued on February 21, 2003, DOE/IG-0587,
                  “Inspection of Firearms Internal Controls at Los Alamos National
                  Laboratory.” A report on the Savannah River Site review was
                  issued on July 29, 2003, INS-L-03-08, “Internal Controls Over
                  Firearms at the Savannah River Site.”

                  The objective of this inspection was to determine if internal
                  controls over firearms at Livermore were adequate and if the
                  firearms inventories at the site were administered appropriately.

OBSERVATIONS      We concluded that a significant internal control weakness exists
AND CONCLUSIONS   at Livermore with regard to the administration of firearms
                  inventories. This weakness increases the vulnerability of the
                  firearms inventories to loss, abuse, and theft. Specifically, we
                  found that:

                  •   Five firearms at Livermore did not have property control
                      numbers and were not listed in the property inventory; and

                  •   Livermore was not conducting monthly inventories of all
                      firearms, as required by DOE policy.

                  During our inspection, Livermore officials recognized the need for
                  process improvements and advised that they initiated corrective
                  actions.




Page 1                              Inspection of Firearms Internal Controls at
                                    the Lawrence Livermore National Laboratory
Details of Findings

PROPERTY                         We found that some Livermore firearms did not have property
INVENTORY                        control numbers and were not listed in the Livermore property
                                 inventory. We were able to account for the 1,0391 firearms
                                 assigned to the Protective Force Division, which is part of
                                 Livermore’s Safety, Security, and Environmental Protection
                                 Directorate. These firearms were assigned property control
                                 numbers and were listed in the Livermore property inventory.
                                 However, during our fieldwork, five firearms under the control of
                                 other Livermore Directorates were identified that did not have
                                 property control numbers assigned and were not listed in the
                                 Livermore property inventory.

                                 During our fieldwork, we identified a shotgun that was not
                                 assigned a property number or listed in the Laboratory’s property
                                 inventory. After we notified the Livermore Property Manager,
                                 Laboratory officials performed a wall-to-wall firearms inventory.
                                 This effort resulted in the discovery by Livermore of four
                                 additional firearms that did not have property numbers assigned
                                 and were not listed in the property inventory. The five firearms,
                                 which were acquired nine or more years ago, had not been
                                 identified during Livermore’s annual property inventories of
                                 sensitive property.2 These firearms included:

                                   Description                                  Amount        Date
                                                                                              Received
                                   Shotgun                                        1           1979 - 82
                                   M16A1 Rifle                                    2           1990
                                   Springfield Rifle                              1           1990
                                   Cobray M-11 Semi-automatic                     1           1993 - 94
                                   Pistol

                                 Livermore officials could not explain why the firearms had not
                                 been listed in the property inventory or identified during annual
                                 sensitive property inventories. The Livermore Property Manager
                                 advised that the firearms had been stored in locked cabinets and
                                 the exclusion of the firearms from the property inventory may have
                                 been an oversight on the part of the firearm custodians.



1
  We were advised that DOE was standardizing its firearms and the Livermore inventory contained new weapons as
well as weapons that were to be excessed.
2
  The Energy and Environment Directorate possessed the shotgun; the Defense and Nuclear Technologies
Directorate possessed the M16A1 and Springfield Rifles; and the Physics and Applied Technologies Directorate
possessed the Cobray M-11 Semi-automatic Pistol.


Page 2                                                                                Details of Findings
              The Livermore Property Manager advised that the Laboratory’s
              current procedure for procuring and assigning property control
              numbers to sensitive property items would preclude an incident
              such as the one involving the five firearms from reoccurring. He
              said that while three Livermore Directorates had acquired and
              controlled one or more of the five firearms, a policy being
              developed by Livermore would designate the Safety, Security, and
              Environmental Protection Directorate as the sole organization
              responsible for the acquisition and control of all firearms at
              Livermore.

MONTHLY       We found that Livermore was not conducting monthly inventories
INVENTORIES   of all firearms, as required by DOE policy. DOE policy requires a
              monthly inventory of all firearms, listing the type of firearm, the
              manufacturer, and its serial number. However, the policy
              governing monthly firearms inventories at Livermore requires a
              review of only those firearms that have not been issued to
              protective force officers. Weapons armorers must check and verify
              the make, model, and serial numbers of the weapons in storage and
              verify that the weapons are in order. Consistent with Livermore
              policy, Protective Force Division armorers were only conducting
              monthly inventories of firearms in storage in the arms room and
              were not including firearms that were issued to protective force
              officers and stored in personal lockers at locations separate from
              the arms room when not in use.

              During our review, a senior Livermore protective force official
              acknowledged that Livermore’s policy was not consistent with
              DOE requirements. He advised that Livermore would modify its
              policy regarding monthly firearms inventories to be consistent with
              DOE policy and include all firearms, whether in storage or issued
              to protective force officers.

              Inconsistent checks and balances in the administration of
              property inventories at Livermore increase the vulnerability of
              firearms to loss, abuse and theft. Given the sensitive nature of
              firearms as an inventory item, we concluded that the conditions
              found at Livermore represented a significant internal control
              weakness.




Page 3                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Livermore Site Office, take
                  appropriate action to ensure that:

                  1. Livermore properly controls, inventories, and maintains
                     firearms in accordance with DOE requirements.

                  2. Livermore develops and fully implements policy that assigns
                     responsibility for the acquisition and control of firearms to one
                     organization;

                  3. All firearms received by Livermore are assigned property
                     numbers and entered into the property management database in
                     a timely manner;

                  4. Annual inventories of sensitive property include all firearms
                     assigned to the site; and

                  5. All protective force firearms are inventoried on a monthly basis
                     in accordance with DOE requirements.

MANAGEMENT        On August 21, 2003, the Associate Administrator for Management
COMMENTS          and Administration, National Nuclear Security Administration,
                  provided written comments on our draft inspection report. The
                  Associate Administrator’s verbatim response is included as
                  Appendix B to this report. Management concurred with the report
                  recommendations and identified corrective actions taken or
                  planned. While management agreed that there were a number of
                  processes and procedures that needed improvement, management
                  did not agree with the conclusion that the conditions found at
                  Livermore represented a significant internal control weakness.

INSPECTOR         We consider management’s comments and actions regarding the
COMMENTS          findings and recommendations contained in our report to be
                  responsive. Laboratory management took prompt action to
                  improve the controls over all firearms at the Laboratory following
                  the discovery of the five weapons that were not on the property
                  inventory.

                  Firearms, which are highly vulnerable to loss, abuse, and theft, are
                  considered sensitive items by DOE. Therefore, they are subject to
                  strict property controls, including regularly scheduled inventories.
                  The fact that five firearms had not been inventoried or




Page 4                                                     Recommendations
                                         Management and Inspector Comments
         subject to property controls at Livermore for periods ranging from
         10 to 20 years represents, in our view, a significant breakdown in
         property controls and is a significant internal control weakness.




Page 5                                               Inspector Comments
Appendix A

SCOPE AND     We conducted the fieldwork portion of our review during
METHODOLOGY   October 2002 to March 2003. Our review included interviews with
              National Nuclear Security Administration officials at Department
              of Energy (DOE) Headquarters and the Livermore Site Office, as
              well as Livermore officials. We also reviewed applicable policies
              and procedures and other records regarding property management
              and firearms, including:

              •   Livermore Management and Operating Contracts.

              •   DOE Property Management Regulations, Title 41 Code of
                  Federal Regulations, Chapter 109.

              •   Livermore Property Management Policies and Procedures.

              •   DOE O 473.2, Protective Force Program, dated 6-30-00.

              •   DOE M 473.2-2, Protective Force Program Manual,
                  dated 6-30-00.

              •   Livermore’s revised Protective Force Division Firearms/Use of
                  Force Order, dated October 2001.

              •   Livermore’s revised Protective Force Division Post Order
                  APCO, dated October 2001.

              •   Livermore Firearms Inventory Lists for Fiscal Year (FY) 2002.

              •   Livermore’s Property Retirement Records, FY 94 to Present.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                                Scope and Methodology
Appendix B




Page 7       Management Comments
Page 8   Management Comments
Page 9   Management Comments
                                                                    IG Report No. DOE/IG-0621

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
